HHS/OIG, Audit - "Claim Payment Adjustments Identified by Quality
Improvement Organizations," (A-03-06-00005)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Claim Payment Adjustments Identified by Quality
Improvement Organizations," (A-03-06-00005)
November 29, 2007
Complete
Text of Report is available in PDF format (543 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Fiscal intermediaries properly processed the majority of
payment adjustments for claims referred by the quality improvement organizations
(QIO).  Specifically, fiscal intermediaries properly adjusted 3,440 (96.4
percent) of the 3,568 claims referred based on the QIOs case reviews and final
determinations during the fiscal year (FY) 2005 Hospital Payment Monitoring
Program (HPMP).  The 3,440 adjusted claims had net overpayments totaling
$9,247,343, or 95.5 percent of the $9,684,299 in net overpayments requiring
adjustment.  However, fiscal intermediaries did not properly adjust 128 claims
with net overpayments totaling $415,677.
We recommended that the Centers for Medicare & Medicaid Services (CMS) (1)
instruct fiscal intermediaries to recover $415,677 for 128 claims with errors
identified during the FY 2005 HPMP that were either not adjusted or only
partially adjusted and (2) follow up with the QIOs and fiscal intermediaries
when adjustments are not processed promptly.  CMS agreed with our first
recommendation and disagreed with our second recommendation.